2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-274
TERESA BUCHANAN,
Petitioner,

Tr
COCKLE

v.
F. KING ALEXANDER, DAMON ANDREW,
A.G. MONACO, AND GASTON REINOSO,

Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of September, 2019, send

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

out from Omaha, NE 2 package(s) containing 3 copies of the MOTION FOR LEAVE TO FILE AMICUS CURIAE BRIEF

AND BRIEF OF THE NATIONAL COALITION AGAINST CENSORSHIP, THE WOODHULL FREEDOM
FOUNDATION, THE DKT LIBERTY PROJECT, PROFESSOR RICHARD FOSSEY, & PROFESSOR DAVID
BLOOMFIELD AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be
served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

ANDREW W. LESTER.
Counsel of Record

ANTHONY J. FERATE

SPENCER FANE LLP

9400 N. Broadway Extension,
Suite 600

Oklahoma City, OK 73114

(405) 844-9900

alester@spencerfane.com

Counsel for Amici Curiae National Coalition Against
Censorship, The Woodhull Freedom Foundation,
The DKT Liberty Project, Professor Richard Fossey
& Professor David Bloomfield

Subscribed and sworn to before me this 30th day of September, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

 

Notary Public

Affiant

38743
 

Attorneys for Petitioner

Robert Lawrence Corn-Revere
Counsel of Record

Party name: Teresa Buchanan

Davis Wright Tremaine LLP
1919 Pennsylvania Ave., NW
Suite 800

Washington, DC 20006

202-973-4225

bobcornrevere@dwt.com

 

 

Attorneys for Respondents

Elizabeth Baker Murrill
Counsel of Record

Party name: F. King Alexander, et al.

Office of the Attorney General
P.O. Box 94005
Baton Rouge, LA 70084-9005

225-326-6766

murrille@ag.louisiana.gov

 

 
